                                                        IG-98-021




AUDIT
REPORT                     IMPROVED CONTROLS NEEDED OVER NASA'S
                                 SUPERCOMPUTING INVENTORY



                                       JULY 24, 1998




                                OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
ADDITIONAL COPIES

To obtain additional copies of this audit report, contact the Assistant Inspector General
for Auditing at 202-358-1232.

SUGGESTIONS FOR FUTURE AUDITS

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W
               300 E. St., SW
               Washington, DC 20546


NASA HOTLINE

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline by
calling 1-800-424-9183, 1-800-535-8134 (TDD), or by writing the NASA Inspector
General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The identity
of each writer and caller can be kept confidential, upon request, to the extent permitted by
law.




ACRONYMS

ARC            Ames Research Center
CoSMO          Consolidated Supercomputing Management Office
CPU            Central Processing Unit
GSFC           Goddard Space Flight Center
JPL            Jet Propulsion Laboratory
JSC            Johnson Space Center
LaRC           Langley Research Center
LeRC           Lewis Research Center
MSFC           Marshall Space Flight Center
NEMS           NASA Equipment Management System
OIG            Office of Inspector General
OMB            Office of Management and Budget
R&D            Research and Development
W                                                                           July 24, 1998


TO:              AO/Chief Information Officer

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Audit Report on Improved Controls Needed Over NASA’s
                 Supercomputing Inventory (Assignment No. A-HA-97-056)
                 Report No. IG-98-021


The subject final report is provided for your use. Please refer to the executive summary for
the overall audit results. Your comments on the draft report were responsive to our
recommendations. However, both recommendations will remain open until management
corrective actions have been fully implemented.

If you have questions concerning the report, please contact Mr. David L. Gandrud,
Program Director for the Information Technology Program Audit, at (650) 604-2672 or
Mr. Roger Flann, Audit Program Manager, at (818) 354-9755. We appreciate the
courtesies extended to the audit staff. The report distribution is in Appendix C.


[Original signed by Russell A. Rau]

Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
G/General Counsel
JM/Director, Management Assessment Division
ARC/200-6/Director of Information Systems
     241-11/Audit Liaison Representative
     258-3/Director, Consolidated Supercomputing Management Office
                                            2




bcc: AIGA, IG, Reading (w/o Encl.) Chrons
ARC/204-11/D. Gandrud
JPL/180-300/R. Flann
                            TABLE OF CONTENTS


EXECUTIVE SUMMARY.................................................................. 1
BACKGROUND............................................................................ 3
FINDING AND RECOMMENDATIONS................................................... 6
       IMPROVEMENTS NEEDED TO IDENTIFY NASA SUPERCOMPUTERS AND
         SUPERCOMPUTING TIME PURCHASED FROM EXTERNAL SOURCES..... 6
APPENDIX A - OBJECTIVES, SCOPE, AND METHODOLOGY...................... 10
APPENDIX B - MANAGEMENT’S RESPONSE........................................ 11
APPENDIX B - REPORT DISTRIBUTION.............................................. 12




                                                                               IG-98-021
EXECUTIVE SUMMARY

INTRODUCTION        The mission of the Consolidated Supercomputing
                    Management Office (CoSMO) is to meet the National
                    Aeronautics and Space Administration's (NASA)
                    supercomputing requirements through effective and
                    efficient management of NASA’s supercomputing
                    resources. In Fiscal Year 1997, CoSMO, located at the
                    Ames Research Center (ARC), initiated a consolidation
                    study to determine the optimal architecture for NASA’s
                    supercomputers.      CoSMO subsequently clarified the
                    different categories of supercomputers -- a change that is
                    likely to result in a significant reclassification of those
                    machines. CoSMO will undertake a new consolidation
                    study of NASA’s supercomputers based on the new
                    classifications.

OBJECTIVE           Our objective was to determine whether CoSMO had
                    accurately identified NASA’s supercomputer inventory and
                    supercomputing “time” (cycles) acquired from external
                    sources.

AUDIT RESULTS       CoSMO can improve its effectiveness as NASA’s office
                    for consolidated supercomputing management by
                    developing an accurate inventory of NASA’s
                    supercomputers and supercomputing time purchased.
                    CoSMO’s inventory was inaccurate because CoSMO had
                    not developed guidance that NASA managers could use to
                    report the necessary data. Until such guidance is made
                    available, CoSMO cannot effectively and efficiently
                    satisfy NASA’s supercomputing requirements.

RECOMMENDATIONS     We recommend that the CoSMO Director issue guidance
                    to NASA Center Directors and Enterprise managers to:

                       •   identify all NASA supercomputers and outside
                           purchases of supercomputing time; and

                       •   coordinate with CoSMO on their respective
                           acquisition   and     retirement plans for
                           supercomputing resources.




                                 1                                  IG-98-021
MANAGEMENT’S      Management concurred with the recommendations.
RESPONSES TO      CoSMO has taken several steps to improve the accuracy of
RECOMMENDATIONS   its supercomputer inventory. Further, CoSMO plans to
                  revise its Program Plan to include guidance on how to
                  purchase supercomputing time and describe the
                  coordination efforts for acquiring and retiring
                  supercomputing resources.

EVALUATION OF     The actions taken and planned are responsive to the
MANAGEMENT’S      recommendations.
RESPONSES




                              2                                 IG-98-021
      IMPROVED CONTROLS NEEDED OVER NASA'S
            SUPERCOMPUTING INVENTORY

BACKGROUND

                 The Ames Research Center (ARC), through the
                 Consolidated Supercomputing Management Office
                 (CoSMO), is responsible for acquiring, maintaining,
                 operating, managing, upgrading, and budgeting for
                 NASA’s supercomputers, regardless of location.
                 CoSMO’s stated mission is to meet NASA’s
                 supercomputing requirements, while realizing an overall
                 cost savings through effective and efficient management of
                 NASA’s supercomputing resources.

                 On October 1, 1996, NASA established CoSMO in
                 response to a National Performance Review
                 recommendation for Government-wide data processing
                 consolidation and modernization and to NASA’s Zero
                 Base Review. The Zero Base Review directed changes in
                 the way NASA was organized and operated. These
                 reviews and the establishment of CoSMO are consistent
                 with Office of Management and Budget (OMB) Bulletin
                 96-02, “Consolidation of Agency Data Centers” (dated
                 October 4, 1995). OMB Bulletin 96-02 identified the
                 need for reducing the number of agency data centers and
                 the total cost of their data center operations.

                 In 1996, CoSMO developed a management plan that it
                 coordinated with key personnel at the NASA Center,
                 Enterprise, and Headquarters levels. A major element of
                 the plan is the determination of the “optimal architecture”
                 (a supercomputing structure that meets Enterprise
                 requirements, is cost-effective, provides customer
                 satisfaction, reduces technical risk, provides equal or
                 improved capability over current configurations, and
                 provides leading edge technology). The plan identified a
                 total of 31 supercomputing machines (defined later in this
                 section), as follows:




                           3                                   IG-98-021
•   14 production machines at 6 NASA locations -- ARC,
    Goddard Space Flight Center (GSFC), Johnson Space
    Center (JSC), Langley Research Center (LaRC), Lewis
    Research Center (LeRC), and Marshall Space Flight
    Center (MSFC);

•   13 research and development (R&D) machines at 5
    NASA locations -- ARC, GSFC, the Jet Propulsion
    Laboratory (JPL), LaRC, and LeRC; and

•   4 secure machines at 2 NASA locations --ARC and
    LaRC.

The plan also identified some limitations in CoSMO’s
responsibilities  related     to   R&D        and    secure
supercomputing. Specifically, users of R&D and secure
supercomputers will retain responsibility for programmatic
(purchasing and use) decisions and will be responsible for
funding capital investment, operations, and maintenance
costs. During Fiscal Year 1997, CoSMO initiated a
consolidation study of NASA’s production and secure
supercomputers to determine the optimal architecture.

In July 1997, the Office of Inspector General (OIG)
announced an audit to determine whether CoSMO’s cost-
benefit analysis adequately supported the planned
supercomputer consolidation(s). The OIG issued a draft
audit report to NASA management entitled,
“Consolidation Decision for Secure Supercomputers,”
(A-HA-98-008) in May 1998.

During our audit of CoSMO’s supercomputer
consolidation effort, the OIG questioned CoSMO’s
rationale for excluding R&D supercomputers from its
consolidation study and for classifying several production
supercomputers as R&D supercomputers. As a result,
CoSMO clarified its definition of R&D supercomputers
and, hence, the scope of its consolidation plan. CoSMO
later reclassified the R&D machines to production
machines and issued draft guidance to its management
plan.




          4                                   IG-98-021
According to the guidance, an R&D supercomputer is a
research computing system that tests hardware and
software configurations. R&D supercomputing results in
frequent system crashes and maintenance. A production
supercomputer is a computer system that produces
scientific and technical results that support NASA
missions and programs.      Production supercomputing
requires a high degree of operational stability and
dependability. A secure supercomputer is a computer
system used to support classified programs for which
systems software and physical access must be controlled
for security purposes.

The CoSMO Director believes the new definition of R&D
supercomputing will result in a significant reclassification
of R&D machines to production machines. CoSMO plans
to conduct a new consolidation study for production
supercomputing once all R&D supercomputers have been
addressed in the context of the new definition.

As a result of CoSMO’s planned consolidation study, we
terminated our original audit objective. (See Appendix A
for additional information on audit objectives, scope, and
methodology.) Notwithstanding this change in audit
direction, we identified improvements that CoSMO can
make to more effectively perform its stated mission.
These areas are discussed in the Finding and
Recommendations section of this report.




          5                                    IG-98-021
FINDING AND RECOMMENDATIONS
IMPROVEMENTSNEEDED   CoSMO can improve its effectiveness as NASA’s office
TO IDENTIFY NASA     for consolidated supercomputing management by
SUPERCOMPUTERS AND   developing an accurate inventory of NASA’s
                     supercomputers and supercomputing time purchased.
SUPERCOMPUTINGTIME   CoSMO lacked an accurate inventory because it had not
PURCHASED FROM       issued detailed, written guidance to NASA managers for
EXTERNAL SOURCES     use in identifying their supercomputer inventory needs.
                     Until it issues such guidance, CoSMO cannot effectively
                     and efficiently satisfy its mission as described in its
                     management plan.

                     CoSMO’s management plan, dated November 25, 1996,
                     gives CoSMO management the oversight responsibility
                     for all NASA supercomputers. The plan states:

                       CoSMO’s Mission is to meet NASA’s supercomputing
                       requirements for each Enterprise office while realizing an
                       overall cost savings through effective and efficient management
                       of NASA’s supercomputing resources through the end of the
                       decade and into the next century.


                     To meet this mission, we believe CoSMO must have an
                     accurate accounting of NASA’s existing and future
                     supercomputing resources and requirements, as well as
                     the funding to help NASA realize its optimal
                     supercomputing architecture.

                     The audit showed that CoSMO had not identified (a) all
                     NASA supercomputer hardware and (b) supercomputing
                     “time” acquired from external sources. CoSMO cannot
                     rely on the NASA Equipment Management System
                     (NEMS) to identify supercomputer hardware because
                     supercomputers are not defined as such in the NEMS
                     records. To illustrate, a supercomputer may consist of
                     multiple central processing units (CPUs), each with its
                     own NEMS identification number. The CPU may bear
                     no resemblance to a supercomputer and, therefore, may
                     not be associated with a supercomputer for inventory
                     purposes. Consequently, CoSMO must rely on NASA
                     Center and Enterprise managers to identify their
                     supercomputer assets.




                                 6                                          IG-98-021
CoSMO’s         inventory     records   omitted    two
supercomputers.      Specifically, in September 1997,
CoSMO provided us a listing of supercomputers
(consisting of 19 production and R&D machines) based
on information it obtained from the various Centers.
Absent from the list were two supercomputers: one (SGI
power Challenge Array) at ARC and one (MasPar MP-
2/1 Cluster) at GSFC. A NASA website described these
systems as High Speed Performance and Computing
testbeds. After we brought the two systems to the
CoSMO Director’s attention, he determined that the
Centers holding the two machines considered them older
R&D supercomputers with no apparent future application
and, therefore, did not report them to CoSMO.
Nevertheless, we believe the Centers should have
reported the machines to CoSMO because they are, in
fact, supercomputing resources.

The omissions may not have occurred if CoSMO had set
forth written, implementing guidance in its management
plan or elsewhere. Such guidance should have delineated
Center and Enterprise management duties and
responsibilities for inventory reporting and for
coordinating with CoSMO on any planned acquisitions or
retirements of supercomputers. We believe improved
coordination between CoSMO and the Center Directors
and Enterprise managers will enhance the accuracy of the
supercomputer inventory.        Additionally, improved
coordination will enable CoSMO to evaluate the most
efficient and effective means for assessing the needs of
supercomputer users.

CoSMO also has no effective means to identify
supercomputing time that NASA acquires from external,
non-NASA sources.            To obtain an accurate
representation of NASA’s supercomputer resources,
CoSMO must again depend on Center and Enterprise
managers to provide the needed information.          To
illustrate, CoSMO lacked data supporting the extent of
supercomputing time the JPL purchased from the
California Institute of Technology. JPL told us that its
Fiscal Year 1997 supercomputing time purchases totaled
$2,650,000. As in the case of inventory reporting
discussed above, formal guidance would give CoSMO




           7                                 IG-98-021
                   improved visibility over NASA’s existing and planned
                   supercomputing resources.      Without knowledge of
                   existing supercomputer resources and planned
                   acquisitions of outside supercomputing, CoSMO cannot
                   effectively     manage      NASA’s      supercomputing
                   requirements.

RECOMMENDATION 1   We recommend that the CoSMO Director issue guidance
                   to NASA Center Directors and Enterprise managers to:

                     (1) Identify all NASA supercomputers and outside
                     purchases of supercomputing time.

MANAGEMENT’S       Management concurred. CoSMO has taken several steps
RESPONSE TO        to improve the accuracy of its supercomputer inventory.
RECOMMENDATION 1   Specifically, CoSMO has searched NEMS and the
                   Scientific and Engineering Workstation Procurement
                   databases, requested the identification of supercomputers
                   as part of its Information Technology Program Operating
                   Plan for the Year 2000, and will revise its Program Plan
                   to include guidance on how to purchase supercomputing
                   time. CoSMO expects to complete these actions by
                   September 30, 1998.

EVALUATION OF      Actions taken to identify all supercomputers in NASA
MANAGEMENT’S       have effectively responded to part of the
RESPONSE           recommendation.       Management’s response did not
                   address outside purchases of supercomputing time.
                   However, after submission of the comments, the CoSMO
                   Assistant Director told the OIG that CoSMO will add
                   guidance to its Program Plan that will request users to
                   identify outside purchases of supercomputing time.
                   Based on the additional information provided by the
                   Assistant Director, management’s actions are fully
                   responsive to the recommendation.

RECOMMENDATION 2     (2) Coordinate with CoSMO on their respective
                         acquisition  and      retirement plans for
                         supercomputing resources.

MANAGEMENT’S       Management concurred. CoSMO will describe in its
RESPONSE TO        program plan the means to achieve such coordination.
RECOMMENDATION 2   The program plan is to be completed by September 30,
                   1998.




                              8                                  IG-98-021
EVALUATION OF   The planned action is responsive to the recommendation.
MANAGEMENT’S
RESPONSE




                          9                                  IG-98-021
                                                                Appendix A


OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES         The original objective of the audit was to determine
                   whether CoSMO’s cost-benefit analysis adequately
                   supported the planned supercomputer consolidation.
                   Specifically, our audit focused on the consolidation of
                   production supercomputers. The consolidation of secure
                   supercomputers is addressed in a draft audit report to
                   NASA management entitled, “Consolidation Decision for
                   Secure Supercomputers” (A-HA-98-008).

                   During the audit, CoSMO clarified its definition of R&D
                   supercomputers and, accordingly, decided to pursue a new
                   consolidation study in the near future. Because this study
                   will require a new cost-benefit analysis, we discontinued
                   our original audit objective. Our revised audit objective
                   was to determine whether CoSMO had accurately
                   identified NASA’s supercomputer inventory and
                   supercomputing “time” (cycles) acquired from external
                   sources.

SCOPE AND          We reviewed OMB Bulletin 96-02, “Consolidation of
METHODOLOGY        Agency Data Centers”; the 1996 CoSMO management
                   plan; and related documentation. Also, we interviewed
                   various NASA officials regarding their views on the
                   CoSMO mission.

AUDIT FIELD WORK   Audit field work was conducted from July 1997 through
                   February 1998. We performed the audit in accordance
                   with generally accepted government auditing standards.




                              10                                  IG-98-021
                             Appendix B
Management’s Response




                        11   IG-98-021
                                                                            Appendix C


REPORT DISTRIBUTION

NASA Headquarters
Code AO/Chief Information Officer
Code B/Chief Financial Officer
Code B/Comptroller
Code G/General Counsel
Code J/Associate Administrator for Management Systems and Facilities
Code JM/Management Assessment Division
Code L/Associate Administrator for Legislative Affairs
Code R/Associate Administrator for Aeronautics and Space Transportation Technology
Code R/Chief Information Officer Representative
Code S/Associate Administrator for Space Science
Code W/Assistant Inspector General for Inspections, Administrative Investigations,
 and Assessments

NASA Field Installations
Director, Ames Research Center
Director, Consolidated Supercomputing Management Office, Ames Research Center
Director, Office of the Director of Information Systems, Ames Research Center
Chief Information Officer, Ames Research Center
Audit Liaison Representative, Ames Research Center

NASA Offices of Inspector General
Ames Research Center
Goddard Space Flight Center
Jet Propulsion Laboratory
Lyndon B. Johnson Space Center
John F. Kennedy Space Center
Langley Research Center
Lewis Research Center
George C. Marshall Space Flight Center
John C. Stennis Space Center




                                           12                                   IG-98-021
                                                                               Appendix C


Non-NASA Federal Organizations and Individuals
Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management
 and Budget
Budget Examiner, Energy Science Division, Office of Management and Budget
Associate Director, National Security and International Affairs Division,
 General Accounting Office
Special Counsel, House Subcommittee on National Security, International Affairs,
 and Criminal Justice
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member -- Congressional Committees and
Subcommittees
Senate Committee on Appropriations
Senate Subcommittee on VA, HUD and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD and Independent Agencies
House Committee on Government Reform and Oversight
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Members
The Honorable Pete Sessions, U.S. House of Representatives




                                            13                                     IG-98-021
MAJOR CONTRIBUTORS TO THIS REPORT
Ames Research Center        David L. Gandrud, Program Director
                            Howard Kwok, Auditor-in-Charge
                            Barbara J. Smith, Program Assistant

Jet Propulsion Laboratory   Roger Flann, Program Manager
